IN THE SUPREME COURT OF THE UNITED STATES
No. 20-1143
DENISE A. BADGEROW, PETITIONER
v.
GREG WALTERS, ET AL.
MOTION FOR LEAVE TO DISPENSE
WITH PREPARATION OF A JOINT APPENDIX

Pursuant to Rule 26.8 of the Rules of this Court, petitioner
respectfully seeks leave to dispense with the requirement of a
joint appendix in this case. The question presented is a question
of law: whether federal courts have subject-matter jurisdiction to
confirm or vacate an arbitration award under Sections 9 and 10 of
the Federal Arbitration Act, 9 U.S.C. 9-10, where the only basis
for jurisdiction is that the underlying dispute involved a federal
question. The relevant opinions of the court of appeals and the
district court are included in the appendix to the petition for a
writ of certiorari. In our view, no other portion of the record
would materially assist the Court’s consideration of the case or
requires special attention warranting the preparation and expense
of a joint appendix. Petitioner is authorized to state that counsel
for respondents agrees that a joint appendix is not necessary.

2

Respectfully submitted.
Daniel L. Geyser
Counsel of Record
ALEXANDER DUBOSE & JEFFERSON LLP
Walnut Glen Tower
8144 Walnut Hill Lane, Ste. 1000
Dallas, TX 75231
(214) 396-0441
dgeyser@adjtlaw.com
June 17, 2021

